                                                         ADVISORY




RECOVERY OVERSIGHT ADVISORY
Contacting Recipients that Repeatedly Fail to Report




Report No.: RO-C-MOA-023-2011                          December 2010
                OFFICE OF
                INSPECTOR GENERAL
                U.S.DEPARTMENT OF THE INTERIOR


To:          Chris Henderson
             Senior Advisor to the Secretary for Economic Recovery and Stimulus

From:        RobertA.Knox~ ~
             Assistant Insp~Ge~;~~overy Oversight

Subject: Recovery Oversight Advisory - Contacting Recipients that Repeatedly Fail to Report
         Report No. RO-C-MOA-023-2011

        The Office oflnspector General (OIG) recently assisted the U.S. Department of the
Interior (DOl) on two separate instances where recipients failed to report on
FederalReporting.gov in accordance with Section 1512 of the American Recovery and
Reinvestment Act of2009 (Recovery Act). We commend DOl for regularly informing recipients
of the importance of reporting in a timely manner.

        As of June 2010, the National Park Service (NPS) and the Bureau of Land Management
(BLM) each had a recipient who failed to report for two consecutive quarters. NPS sent the
recipient a letter of noncompliance. The NPS letter mirrored the template, which was developed
in the Department of the Interior Acquisition Guidance (DIG) release ARRA-2010-02, amended
May 19, 2010. The letter reiterated reporting requirements, noted the recipient's failure to meet
those requirements, and contained the following language regarding potential consequences to
the recipient:

         The failure to enter the required quarterly reporting data in FederaIReporting.gov, can
         result in action which may include onsite review of your organization by the Inspector
         General, termination of your award, suspension and debarment throughout all federal
         government agencies and reclaiming of funds.

        BLM handled their noncompliant recipient differently. After the recipient failed to report
for a second quarter, BLM sent only emails requesting that a manual report be sent to BLM.
BLM received no response and then followed up with standard reminders to report the next
quarter, which they sent to every recipient. This approach was operationally less effective than
the NPS approach.

      We recommend that DO I:

•     Ensure that all bureaus within DOl use the standard letter template provided within DIG
      ARRA-2010-02 for final noncompliant notification;
•     Use more definitive language within the letter. Such language would include: "Failure to
      report next quarter will result in the OIG recommending suspension or debarment of your
      firm. ";




                                 Recovery OverSight Office I Washington. DC
•     Develop specific clauses for the letter based on the situation. For example, if the contract is
      ongoing, a clause could be inserted that states the Department will withhold future payments
      until all reporting requirements are met;
•     Follow up with the recipient several days before the next reporting period opens to reiterate
      the consequences of not reporting; and
•     Establish standard procedures to inform the OIG of recipients that repeatedly fail to report.

         Please provide a written response to this advisory within 30 days of receipt detailing the
corrective actions DOI will implement to meet our recommendations, as well as targeted
completion dates and title(s) of the official(s) responsible for implementation. We will post this
advisory on our Web site (www.doioig.gov/recovery/) and Recovery.gov. Information contained
in this advisory may also be included in our semiannual reports to the Congress. We performed
our work in accordance with the Quality Standards for Inspections adopted by the Council of the
Inspectors General on Integrity and Efficiency. Please contact me if you have any questions.

cc:      Deputy Secretary, U.S. Department of the Interior
         Assistant Secretary – Policy, Management, and Budget
         Director, Office of Acquisition and Property Management
         Acting Director, Office of Financial Management
         Departmental GAO/OIG Audit Liaison
         Audit Liaison, Office of the Secretary




                                                                                                        2
      Report Fraud, Waste,
      and Mismanagement
             Fraud, waste, and mismanagement in
            government concern everyone: Office
           of Inspector General staff, Departmental
            employees, and the general public. We
               actively solicit allegations of any
           inefficient and wasteful practices, fraud,
                and mismanagement related to
            Departmental or Insular Area programs
                and operations. You can report
               allegations to us in several ways.



By Mail:            U.S. Department of the Interior
                    Office of Inspector General
                    Mail Stop 4428 MIB
                    1849 C Street, NW
                    Washington, D.C. 20240


By Phone:           24-Hour Toll Free                   800-424-5081
                    Washington Metro Area               703-487-5435


By Fax:             703-487-5402


By Internet:        www.doioig.gov
